HHS/OIG, Audit -"Compliance with Medicares Postacute Care Transfer Policy for Fiscal Year 2000,"(A-04-02-07005)"Compliance with Medicares Postacute Care Transfer Policy for Fiscal Year 2000,"(A-04-02-07005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Compliance with Medicares Postacute Care Transfer Policy for Fiscal Year 2000," (A-04-02-07005)
April 21, 2003
Complete
Text of Report is available in PDF format (622 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Centers for Medicare and Medicaid Services (CMS) has no controls or edits to detect
excessive payments to prospective payment system (PPS) hospitals for erroneously coded discharges that are followed by
postacute care. As a result, we estimate, based on a statistical sample, that Medicare paid approximately $61 million in
excessive diagnosis related groups (DRG) payments to PPS hospitals for fiscal year (FY) 2000. Combining this estimate with
our estimate of $55 million in erroneous payments that were previously identified for FY 1999, we estimate that CMS has
overpaid hospital claims by approximately $116 million for the initial 2-year period of the postacute care transfer policy.
In addition to financial adjustments and identification of overpayments subsequent to FY 2000, we recommended that CMS,
as a long term remedy, establish an alert mechanism within the Common Working File to compare applicable inpatient claims
with subsequent postacute claims. This will allow potentially erroneous inpatient hospital claims to be detected, reviewed,
and appropriately adjusted on an ongoing basis.